               f 

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     The EPA Needs to Improve
                     Management of Its
                     School Environmental
                     Health Efforts
                     Report No. 13-P-0201                    March 27, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Carolyn Copper
                                                   Jerri Dorsey
                                                   Jeffrey Harris
                                                   Natasha Henry
                                                   Kathryn Hess
                                                   Kalpana Ramakrishnan
                                                   Thane Thompson




Abbreviations

AHERA         Asbestos Hazard Emergency Response Act
CGHS          Clean Green and Healthy Schools
EISA          Energy Independence and Security Act
EPA           U. S. Environmental Protection Agency
FY            Fiscal Year
IAQ           Indoor Air Quality
IPM           Integrated Pest Management
OCHP          Office of Children’s Health Protection
OECA          Office of Enforcement and Compliance Assistance
OIG           Office of the Inspector General


Cover photo: Image is from the EPA’s Healthy School Environments website (EPA photo).




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                               13-P-0201
                                                                                                         March 27, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review                The EPA Needs to Improve Management of Its
                                      School Environmental Health Efforts
The Office of Inspector General
of the U.S. Environmental              What We Found
Protection Agency conducted this
evaluation to determine how           The EPA established children’s health as a priority. The EPA’s work on
effectively the EPA ensures the       environmental health in schools includes educating school officials about
environment in schools is healthy     asbestos risks, developing a compliance tool for schools with drinking water
for children. Specifically, we        violations, and providing grants. Further, many states base their laws for indoor
looked at how the EPA                 air quality in schools on the EPA’s work and tools.
implements its school
environmental health programs to      The EPA created the Clean Green and Healthy Schools initiative to promote
protect children’s health.            healthier school environments. However, the initiative lacks necessary
                                      management controls to ensure that the EPA provides consistent
More than 60 million students         implementation of the program across the United States. The agency recently
and teachers attend over 130,000      developed some measures for the initiative, but those measures are not
public and private schools in the     specific enough to demonstrate program outcomes. In addition, regional staff
United States. Poor                   may not be able to collect the data needed to determine how the initiative is
environmental conditions in           improving environmental health in schools.
schools can inhibit learning,
increase absenteeism, and pose        As the EPA works to improve initiative management, the agency needs to take
increased risks to children’s         into account the impact that funding reductions may have on its school
health.                               environmental health efforts. The EPA has reduced funding for the CGHS
                                      initiative, as well as reduced or eliminated funding for some related school
In fiscal year 2011, the agency       environmental health programs. Most notably, the EPA eliminated funding for
launched the Clean Green and          its Indoor Air Quality Tools for Schools program, even though school personnel
Healthy Schools initiative to         nationwide use the tools. Because of funding reductions, the EPA cut the
support states and communities        scope of activities originally planned under the CGHS initiative, further reducing
promoting healthier school            needed services to schools.
environments. The initiative’s
vision is that children “will grow,   Finally, the EPA did not meet all requirements of the Healthy High-Performance
learn and play in clean, green,       Schools subtitle of the Energy Independence and Security Act. The agency
and healthy schools.”                 was nearly 3 years late issuing school environmental health guidelines for
                                      states, which delayed assistance to the states. The EPA also did not report
This report addresses the             annually, resulting in Congress being uninformed about delays.
following EPA Goal or
Cross-Cutting Strategy:                Recommendations and Planned Agency Corrective Actions
   Working for environmental
                                      The EPA should improve management controls for the CGHS initiative. This
    justice and children’s health.
                                      includes better planning, measures, and data collection procedures to ensure
                                      consistent regional implementation. The agency should also comply fully with
                                      the Energy Independence and Security Act. Finally, the EPA should regularly
For further information, contact
our Office of Congressional and       review its school environmental health programs to determine whether the
Public Affairs at (202) 566-2391.     agency provides sufficient regulatory and voluntary program services to
                                      address the risks to children’s health in schools.
The full report is at:
www.epa.gov/oig/reports/2013/         The agency agreed to all recommendations and provided corrective actions
20130327-13-P-0201.pdf                and completion dates. The recommendations remain open with corrective
                                      actions ongoing. No further response to this report is required.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                         THE INSPECTOR GENERAL


                                              March 27, 2013

MEMORANDUM


SUBJECT:	 The EPA Needs to Improve Management of Its
          School Environmental Health Efforts
          Report No. 13-P-0201


FROM:	         Arthur A. Elkins Jr.


TO:	           Bob Perciasepe
               Deputy Administrator

               Jackie Mosby, Acting Director 

               Office of Children’s Health Protection 



This is our report on the subject evaluation conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. This report describes the problems the OIG identified and
makes recommendations to address these problems. This report represents the opinion of the OIG and
does not necessarily represent the final EPA position. Final determinations on matters in this report will
be made by EPA managers in accordance with established audit resolution procedures.

Action Required

You are not required to provide a written response to this final report, because you agreed to all
recommendations and provided corrective actions and completion dates that meet the intent of the
recommendations. The recommendations remain open with corrective actions ongoing.

Should you choose to provide a response to this final report, we will post your response on the OIG’s
public website, along with our memorandum commenting on your response. You should provide your
response as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended.

We have no objections to the further release of this report to the public. We will post this report to our
website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper, assistant
inspector general for the Office of Program Evaluation, at (202) 566-0829 or copper.carolyn@epa.gov;
or Jerri Dorsey, acting director for Cross Media, at (919) 541-3601 or dorsey.jerri@epa.gov.
The EPA Needs to Improve Management of Its                                                                                  13-P-0201
School Environmental Health Efforts


                                  Table of Contents 


Chapters
   1    Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Scope and Methodology ..............................................................................               4     


   2	   The EPA Should Improve Management of 

        School Environmental Health Efforts...............................................................                         6


                CGHS Initiative Needs Better Planning, Implementation,
                   and Guidance ........................................................................................           6

                CGHS Initiative Planning Should Consider Reductions in
                   Related Program Funding and Priority ..................................................                         8

                The EPA Did Not Meet All Requirements of EISA.......................................                              11 

                Conclusion...................................................................................................     12     

                Recommendations ......................................................................................            12     

                Agency Response and OIG Evaluation .......................................................                        13 


   Status of Recommendations and Potential Monetary Benefits..............................                                        14 



Appendices
   A    Agency Response to Draft Report....................................................................                       15


   B    Distribution .........................................................................................................    19

                                   Chapter 1

                                   Introduction
Purpose
            The Office of Inspector General of the U.S. Environmental Protection Agency
            sought to determine how effectively the EPA ensures the environment in existing
            schools is healthy for children. Specifically, we focused on whether the EPA was
            effectively implementing programs directed at existing schools, and whether the
            Office of Children’s Health had created enough program criteria to guide regional
            implementation. Further, we determined whether the EPA has data to measure
            program effectiveness, and how other programs are filling the gaps left by the
            defunding of some EPA Schools Programs over the last 5 years.

Background
            Children are more vulnerable to harmful environmental exposures, because their
            bodies are still developing and they eat, drink, and breathe more in proportion to
            their body size. Children’s behavior also exposes them to potential hazards from
            chemicals, pesticides, and organisms.

            Children’s health has been a federal priority since 1997 when President Clinton
            signed Executive Order 13045. This order requires federal agencies to make the
            identification and assessment of children’s environmental health and safety risks a
            high priority. This order further requires that federal agencies ensure that policies,
            programs, activities, and standards address environmental health and safety risks
            to children. The EPA Administrator made leadership in children’s environmental
            health an agency priority. In a memorandum to the senior agency officers in
            February 2010, the Administrator stated: “[W]e must ensure that children's health
            protection is a driving force in our decisions.” This agency priority fulfills
            Executive Order 13045.

            The EPA’s Strategic Plan sets forth an agency commitment “to preserve the
            environment for future generations and to protect human health in the places
            where people live, work, learn, and play.” Inclusion of where people learn in this
            statement points to the key role environmental health in schools plays in
            children’s health.

            Poor environmental conditions in schools can inhibit learning, increase
            absenteeism, and pose increased risks to children’s short- and long-term health.
            Five days a week, over 54 million students from kindergarten through 12th grade
            attend more than 130,000 public and private school facilities in the United States.
            Over seven million teachers and other employees work in these schools.



13-P-0201                                                                                        1
                   The EPA’s School-Based Efforts

                   The EPA collaborates with others working to improve school environmental
                   health, including children, families, teachers, school districts, advocacy
                   organizations, state agencies, and other federal agencies. The EPA regulates some
                   hazards in schools, such as asbestos; and assists states, school districts, and
                   schools in addressing other unregulated hazards, such as mold. The EPA has
                   implemented 10 programs that specifically target environmental and health risks
                   in schools. The EPA features these 10 programs prominently on its “EPA Schools
                   Programs” website.1 For the purpose of this evaluation, we focused on the five
                   programs that contribute to improving environmental health for children in
                   existing school buildings. We describe these programs and some program results
                   in Table 1.

                   The EPA has devoted considerable resources to educating school officials about
                   the risks associated with asbestos and the management of those risks. The EPA
                   also developed a compliance tool for schools with persistent drinking water
                   violations. In 33 states and the District of Columbia, the EPA’s work on indoor air
                   quality serves as the basis for laws requiring schools to develop and implement
                   indoor air quality programs. Six of these laws specifically cite the EPA’s Indoor
                   Air Quality Tools for Schools. Finally, the EPA periodically awarded grants for
                   work aimed at improving school environmental health in areas such as indoor air
                   quality, integrated pest management, chemical cleanout, and state environmental
                   health programs.

                   The OCHP within the Administrator’s office is coordinating activities across
                   agency programs and regions to enhance delivery of tools to promote healthy
                   school environments. Most recently, in an effort to address environmental health
                   in schools, the EPA requested funds for fiscal year 2011 to launch the Clean
                   Green and Healthy Schools initiative to support states and communities
                   promoting healthier school environments. OCHP formed the cross-agency School
                   Coordination Group to collaborate and coordinate the CGHS initiative efforts.
                   The EPA’s vision for the initiative is that “children, regardless of age, race,
                   economic status, or ethnicity will grow, learn and play in clean, green, and
                   healthy schools.”

                   To support this vision, the EPA will:

                      1.	 Work to increase understanding of chemical, biological, and physical
                          hazards in schools, and encourage the use of resources to create healthier
                          learning environments.
                      2.	 Build internal and external partnerships to support the development of 

                          clean, green, and healthy schools. 



1
    Healthy School Environments at http://www.epa.gov/schools/programs.html.



13-P-0201                                                                                              2
      Table 1: EPA Environmental Health Programs Serving Existing Schools


            Program                                            Description



                            The Asbestos Hazard Emergency Response Act became law in October
                            1986 as part of the Toxic Substances Control Act. Under AHERA and its
                            regulations, schools are required to determine if their facilities have
       Asbestos in          asbestos, develop a plan to remove or manage it, and then conduct ongoing
       Schools              management and risk assessment reviews if they decide to manage the
                            asbestos in place. The EPA has conducted numerous inspections of schools
                            and provided compliance assistance to help schools meet the requirements
                            of the AHERA regulations.


                            Under the Safe Drinking Water Act, the water supplier is responsible for the
                            quality of the drinking water. Fewer than six percent of schools in the United
                            States operate their own drinking water systems. The EPA’s Office of Water
                            and Office of Enforcement and Compliance Assistance worked together to
       Drinking Water in
                            identify schools that were out of compliance and developed a compliance
       Schools
                            tool for schools with persistent drinking water violations. Other efforts in
                            schools to ensure safety of drinking water, such as testing for lead and other
                            contaminants at drinking water faucets, are voluntary. The EPA provides
                            information that assists all schools in these voluntary efforts.



                            The EPA provided information and outreach to states and school districts on
       Indoor Air Quality   indoor air quality issues within schools for many years. Notably, the EPA
       Tools for Schools    created the Indoor Air Quality Tools for Schools and the Healthy School
       Program              Environmental Assessment Tool. Because of these efforts, 33 States and the
                            District of Columbia have established their own laws requiring that schools
                            develop and implement indoor air quality programs.


                            Integrated Pest Management helps schools manage pests economically with
                            the least possible hazard to health, property, and the environment. This effort
       Integrated Pest      includes reducing exposure to the pesticides, herbicides, and other
       Management in        chemicals used in schools and on school grounds. In November 2011, the
       Schools              EPA allocated additional funds to school IPM activities; created 10 regional
                            school IPM positions; and initiated the establishment of a Center of Expertise
                            in school IPM.


       Schools              The EPA’s Schools Chemical Cleanout Campaign aimed to ensure that
       Chemical             schools are free from hazards associated with mismanaged chemicals. The
       Cleanout             EPA provided schools information and tools to manage chemicals
       Campaign             responsibly, and awarded grants to clean out old laboratory chemicals.


      Source: OIG analysis of EPA and Environmental Law Institute publications and material.




13-P-0201                                                                                                3
            The Energy Independence and Security Act

            The Healthy High-Performance Schools subtitle of Title IV of the Energy
            Independence and Security Act of December 2007 tasked the EPA with four
            actions to improve school environmental health. The agency has completed three
            of the four actions. In October 2011, the EPA issued guidance on school siting.
            In September 2012, the EPA awarded five grants to states to provide technical
            assistance to schools and to develop and implement state school environmental
            health programs. In October 2012, the EPA issued guidelines for voluntary use by
            states in developing and implementing an environmental health program for
            schools. Finally, EISA required the EPA to report annually to Congress on all
            activities carried out under the Healthy High-Performance Schools subtitle. As of
            March 26, 2013, EPA has not reported to Congress.

Scope and Methodology
            We conducted this evaluation from January 2012 to December 2012, in
            accordance with generally accepted government auditing standards. Those
            standards require that we plan and perform the evaluation to obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and
            conclusions based on our objectives. We believe that the evidence obtained
            provides a reasonable basis for the results reported based upon our objectives.

            The scope of our evaluation was limited to the EPA’s programs that provide
            environmental health services to existing schools. We reviewed and assessed the
            scope, and achieved or anticipated outcomes for the 10 EPA Schools Programs
            listed on the EPA’s healthy school environments website. We determined that five
            programs fell within our scope:

                  Asbestos in Schools. 

                  Drinking Water in Schools. 

                  Indoor Air Quality Tools for Schools. 

                  Integrated Pest Management in Schools. 

                  Schools Chemical Cleanout Campaign. 


            We did not review programs that address the design of new buildings to eliminate
            potential hazards, the siting of new schools to contribute to community smart
            growth efforts, the reduction of emissions from school buses, energy
            consumption, or educating students about being safe in the sun.

            The new CGHS initiative fell within our scope. In addition, we determined that
            three provisions of the EISA Healthy High-Performance Schools subtitle fell
            within our scope:

               1.	 Awarding grants to states to provide technical assistance to schools, and
                   develop and implement state school environmental health programs.


13-P-0201                                                                                      4
               2.	 Issuing guidelines for voluntary use by states in developing and 

                   implementing an environmental health program for schools. 

               3.	 Reporting annually to Congress on all activities carried out under the
                   Healthy High-Performance Schools subtitle.

            We reviewed pertinent documents and interviewed officers, managers, and staff
            in OCHP and relevant EPA program offices. We received responses from all 10
            EPA regions to a set of questions on school programs. We also received
            information from officers of three organizations that work with the EPA and
            others to improve school environmental health:

               	 IPM Institute of North America.
               	 Healthy Schools Network.
               	 American Association of School Administrators.




13-P-0201                                                                                   5
                                   Chapter 2

            The EPA Should Improve Management of 

              School Environmental Health Efforts 

             The EPA’s current school environmental health efforts need management and
             planning improvements to meet the agency priority of protecting children in the
             places where they learn. The new CGHS initiative lacks management controls and
             guidance necessary to ensure consistent implementation and data collection
             requirements to demonstrate outcomes. Further, the initiative’s new vision and
             measures documents do not ask regions to address how they will achieve results
             after the EPA reduced or eliminated funding for several existing school programs.
             Finally, the EPA was nearly 3 years late issuing school environmental health
             guidelines for voluntary use by states, and has not reported annually to Congress
             as required by EISA. Without improving the management and planning of its
             school environmental health efforts, the EPA is at risk of not executing these
             efforts in the most effective way.

CGHS Initiative Needs Better Planning, Implementation,
and Guidance
             The EPA created the CGHS initiative to build partnerships around healthy
             schools, increase understanding of hazards in schools, and encourage the use of
             resources to create healthier schools. We found that the initiative lacks necessary
             management controls, and the EPA has not yet developed guidelines and
             expectations that are specific enough to ensure consistent implementation.
             The EPA’s vision and measures documents outline broad expectations for the
             initiative. However, the EPA has not required regions to develop implementation
             plans, establish specific outcomes, or identify how they will collect data to
             document those accomplishments. Without specific implementation plans and
             measures, OCHP and the regions are unlikely to achieve results. Without specific
             data collection requirements, OCHP and regions are unlikely to identify, collect,
             and analyze the data needed to determine the initiative’s effectiveness.

             Initiative Lacks Guidelines for Planning, Implementation,
             and Oversight

             The CGHS initiative does not have specific implementation guidelines.
             The School Coordination Group, composed of representatives from OCHP, the
             regions, and EPA program offices, developed a Vision, Goals, Objectives, and
             Activities or “Vision” document for the initiative. The Vision document outlines
             an overall vision, general programmatic goals, and broad activities for FYs 2013
             and 2014. However, this Vision document does not take the place of specific
             implementation guidelines. Each region’s program should meet the needs of the



13-P-0201                                                                                       6
            states and school districts in their region; however, a national program also should
            have a core set of criteria that each region must meet.

            The EPA also developed the CGHS Regional FY 2013 Developmental Measures
            or “Regional Measures” document that seemed to establish a core criterion for the
            initiative:

                   Improve the health of school and child care environments by supporting
                   state, tribal and local efforts to address environmental health issues in
                   schools and child care centers, with a focus on the poorest performing
                   schools, underserved communities and tribes.

            This criterion reiterates a sub-objective in OCHP’s strategic plan. However, the
            EPA did not include this criterion in its Vision document. The EPA lays out
            headquarters and regional output measures in the Regional Measures document
            that tabulate all school activities. The Regional Measures document does not
            require separate reporting of the focus activities. Without clear criteria and
            expectations, the EPA lacks assurance that headquarters and regions will focus
            their activities on the poorest performing schools, underserved communities, and
            tribes. Further, OCHP has not posted basic initiative information on its healthy
            schools website. In our opinion, this lack of information creates challenges for
            consistently communicating with both internal and external partners. Updating the
            website would be an effective method of communicating the initiative’s vision,
            goals, and plans, and should be part of OCHP’s implementation guidelines.

            The Vision document does not require regions to develop region-specific
            implementation plans, identify specific outreach targets, or develop specific
            output and outcome levels. The EPA did not finalize the Vision document until
            October 9, 2012. Prior to this date, regional staff were unsure what the EPA
            expected them to achieve through the program. Some regions were reluctant to
            move forward in establishing their specific regional plans until the EPA finalized
            the national guidelines. However, according to the EPA’s Key Performance
            Indicators for FY 2012, the EPA was to establish implementation plans for
            OCHP and the regions by February 29, 2012.

            The CGHS initiative lacks management controls to achieve desired outcomes.
            Current EPA guidance does not require regions to develop oversight processes,
            determine what services are needed, or determine if its services are meeting those
            needs. Furthermore, the initiative does not have oversight, evaluation, or
            assessment criteria. Without criteria, the EPA cannot improve the program or
            respond to changing customer needs. Regions also are not required to gather and
            disseminate best management practices, although OCHP developed the School
            Coordination Group to share this information informally. While the EPA recently
            developed program measures, the lack of planning and implementation
            requirements prevents the EPA from determining what outcomes it has achieved.
            The EPA also cannot report which schools have reduced environmental risks to



13-P-0201                                                                                        7
            their students. As a result, the effectiveness of the CGHS initiative will remain
            unknown.

            CGHS Initiative Lacks Specific Outcome Measures

            The EPA completed its Regional Measures document on October 4, 2012.
            Regions will report the number of school decision-makers who receive
            information or participate in capacity building exercises. Regions plan to report
            the number of schools and school districts that have taken action to become
            cleaner, greener, and healthier. In addition, regions intend to track the number of
            external outreach forums or activities hosted or attended to promote the CGHS
            initiative. However, regional outcome measures are all narrative and qualitative.
            As such, the CGHS initiative lacks specific outcome measures.

            The Regional Measures document states that during the baseline developmental
            period (FYs 2012 through 2014), the EPA will work to “craft realistic measures of
            progress and effectiveness that can be used for future reporting.” However, the
            EPA has not established implementation guidelines that specify how these
            revisions will be undertaken and what information it will use.

            Before the EPA finalized the Regional Measures document, regional staff said
            that even if the EPA identified specific measures, collecting the needed data
            would be difficult. Regional staff said that without their own funding for data
            collection, they would have to rely on the data that the schools already collect.
            However, schools have very limited data collection budgets and are not always
            willing to release information to the EPA. This lack of direct data collection limits
            the EPA’s ability to determine what effects the initiative will have. It also
            prevents the EPA from knowing if the environmental health in existing schools
            has improved. As a result, the EPA will face challenges in collecting data and
            ensuring that the initiative’s activities consistently work to improve school
            environmental health for students and teachers across the United States.

CGHS Initiative Planning Should Consider Reductions
in Related Program Funding and Priority
            The EPA has reduced or eliminated funding for several programs working to
            improve environmental health in schools, including the new CGHS initiative and
            programs that would have worked in conjunction with the initiative. Improving
            environmental quality in schools is a partnership among federal, state and local
            agencies, as well as with nongovernmental organizations. However, since 2008,
            the EPA has cut or defunded several programs that supported those partnerships.
            For example, the EPA eliminated the School Chemical Cleanout Campaign at the
            beginning of FY 2008, reducing the EPA’s ability to help schools manage
            hazardous wastes used in science laboratories and art classrooms. Even the newly
            launched school IPM program is experiencing reductions in grants. Additionally,
            the EPA eliminated funding for the IAQ Tools for Schools program designed to


13-P-0201                                                                                         8
            improve indoor air quality, and reduced in priority another program intended to
            ensure schools manage asbestos in a safe manner.

            OCHP and regional staff informed us that the EPA does not intend the CGHS
            initiative to take the place of the reduced and defunded school programs.
            When OCHP proposed the CGHS initiative, it could not foresee the potential
            programmatic and resource voids created by the EPA’s most recent cuts to its
            mature school-related programs. Ten years ago, the Children’s Health Protection
            Advisory Committee to the EPA recommended that the EPA “[e]valuate and
            document the effectiveness of existing EPA school environmental health
            programs, such as IAQ Tools for Schools.” The EPA needs to conduct this type of
            evaluation to understand how the new initiative can improve its school
            environmental health efforts. Further, as OCHP and the regions work to improve
            their CGHS initiative planning, they need to take into account the impact that
            programmatic cuts have had on all of the EPA’s school environmental health
            efforts.

            The EPA Cut CGHS Initiative Funding

            The EPA has reduced the funding for the CGHS initiative. OCHP requested at
            least 1.1 full-time equivalent positions per region to fund regional schools
            coordinators, but could only provide funding for the fourth quarter of FY 2011.
            In FY 2012, funding levels fell to less than 50 percent of what OCHP initially
            requested. The FY 2012 cuts also reduced headquarters staff support. OCHP
            requested one position to coordinate headquarters and regional school activities
            and to establish management controls, but this position was not funded. As a
            result, the EPA cut the scope of activities originally planned under the initiative,
            further reducing needed services to schools.

            The EPA Eliminated Indoor Air Quality Tools for Schools

            OCHP launched the CGHS initiative while the EPA fully funded its IAQ Tools
            for Schools program. The organization officers we interviewed on indoor air
            quality were concerned about the elimination in FY 2012 of IAQ Tools for
            Schools and other cuts to school environmental health programs. According to
            those we interviewed in and outside the EPA and the documents we reviewed,
            school personnel nationwide used the IAQ Tools for Schools. The tools formed
            the basis for school environmental health statutes in more than 30 states. The
            EPA’s IAQ Tools for Schools program also integrated well with other EPA
            Schools Programs, such as school IPM. The program facilitated communication
            and sharing of best practices among school districts and others working to
            improve school environmental health. For example, over 2,300 teachers, school
            administrators, public health professionals, and others had been educated on
            school environmental health at the last five symposiums sponsored by the
            program. In addition, regional staff and an organization officer we interviewed
            expressed concern to us that the tools will not remain valuable assets if the EPA is



13-P-0201                                                                                          9
                    not continuing to update them. OCHP and the regions will need to take into
                    account the new dormant status of IAQ Tools for Schools in their CGHS initiative
                    plans.

                    In the absence of the IAQ Tools for Schools program, the EPA’s Indoor
                    Environments Division is working on ways to provide information and support,
                    and maintain communication among those working to improve indoor air quality
                    in schools. This effort includes the newly developed School Health and Indoor
                    Environments Leadership Development Summit. The EPA held the first summit
                    on July 12, 2012, with 72 representatives from federal agencies, school districts,
                    nongovernmental organizations, industry, and universities. This summit has the
                    potential to fill some of the programmatic void created by the loss of the annual
                    IAQ Tools for Schools symposium. However, the summit is too new to measure
                    or predict outcomes, and the EPA has not defined how the summit fits within the
                    CGHS initiative.

                    The EPA Reduced the Priority of Asbestos Inspections

                    The EPA reduced the priority of the Asbestos in Schools program for FY 2013. In
                    a March 9, 2012, memorandum, the principal deputy assistant administrator of the
                    OECA advised EPA regions about programs that were to have their priority and
                    funding reduced, including AHERA. The EPA proposed reducing AHERA
                    spending in order to increase support to other compliance monitoring and
                    enforcement priorities. The March 9, 2012, disinvestment plan proposed reducing
                    AHERA enforcement resources to less than a fourth of the existing level.2
                    Regions would still respond to situations involving egregious violations that
                    present significant risks to human health; however, most routine inspections
                    would cease.

                    The proposed reduction plan met with opposition from regional staff, program
                    offices and others. Several regional staff informed us that this reduction would
                    have a negative impact on their ability to keep children safe from asbestos. One
                    regional manager told us: “With the de-funding of the AHERA Inspection
                    Program, fewer schools are being inspected for compliance with the AHERA
                    regulations. Hence, [fewer] school children are being protected from the potential
                    exposure to asbestos.” Another regional manager said, “The continued budget
                    reductions that have supported EPA’s AHERA regulatory enforcement program
                    have had an adverse impact on the protection of children’s health in schools. The
                    Region’s field surveillance work has found that local education agencies are not
                    in compliance with the regulatory requirements of AHERA.”




2
    The full-time equivalent level for AHERA enforcement efforts in March 2012 was 5 positions, with 0.2 in
    headquarters and 4.7 among the 10 regions. The proposed reduced level was 1.1 positions, with 0.1 in
    headquarters and 1 among the 10 regions.


13-P-0201                                                                                                     10
            On June 6, 2012, the principal deputy assistant administrator, OECA, issued an
            update stating that, "[b]ased on regional and program input, OECA is no longer
            looking for a full budget adjustment plan” for AHERA. However, the
            June 6, 2012, correspondence also stated that OECA was still looking for regions
            to reduce their resources where possible. According to OECA, many schools
            successfully managed asbestos in place for decades. OECA explained that
            AHERA was a mature program that needed fewer resources to conduct
            inspections than in the past. However, the AHERA inspection is one of the few
            regulatory authorities the EPA has in schools. As such, reductions in AHERA
            inspections may increase overall environmental risks to children who attend
            primary and secondary schools, as those inspection reductions would lead to
            fewer opportunities for the EPA to be in the schools. As OECA changes
            compliance assistance or enforcement priorities for schools, OCHP and the
            regions may need to update their CGHS initiative plans to take into account these
            changes.

The EPA Did Not Meet All Requirements of EISA
            The EPA did not meet all requirements of the Healthy High-Performance Schools
            subtitle of EISA. The EPA was nearly 3 years late issuing guidelines for voluntary
            use by states developing and implementing a comprehensive environmental health
            program for schools. EISA mandated completion of the guidelines by
            December 19, 2009; however, the EPA did not issue draft guidelines until
            February 27, 2012. The agency received public comments on these draft
            guidelines through April 20, 2012, and published the final guidelines in
            October 2012. For nearly 3 years, some regions did not begin work on state-level
            school environmental health programs because they were awaiting guidance for
            the programs. As a result, the EPA did not provide support to states in the
            timeframe specified in EISA.

            As of March 26, 2013, the EPA had made no reports to Congress on its activities
            carried out under the Healthy High-Performance Schools subtitle. EISA required
            that the EPA annually report to Congress on all activities carried out under the
            subtitle. On March 5, 2013, OCHP submitted its draft report to the Office of
            Management and Budget for review prior to issuing the report to Congress. The
            EPA failed to report to Congress on its inactivity and missed deadlines in the
            preceding 5 years. As a result, the EPA did not inform Congress and the public of
            its inaction through the required reporting process.




13-P-0201                                                                                  11
Conclusion
            The EPA needs to improve program implementation planning, management, and
            oversight to advance its efforts to reduce environmental health risks in schools.
            Further, the EPA needs to consider the impacts of changes to its Schools
            Programs, such as the elimination of IAQ Tools for Schools and the decrease in
            priority of asbestos inspections, in its long-term plans for the CGHS initiative.
            Finally, the EPA needs to report to Congress on its accomplishments and delays
            under the Healthy High-Performance Schools subtitle of EISA. By taking these
            actions, the EPA can implement effective programs that it has designed to protect
            the health of children in the places where they learn.

Recommendations
            To improve management of the EPA’s school environmental health efforts, the
            EPA Deputy Administrator should:

               1.	 Fulfill the requirement of EISA to report to Congress all activities carried
                   out under the Healthy High-Performance Schools subtitle.

            The Director of the Office of Children’s Health Protection should:

               2.	 Develop implementation guidelines and management controls that
                   specify how:

                       a.	 OCHP will manage the adoption and implementation of the newly
                           developed CGHS Vision, Goals, Objectives and Activities
                           document, and the CGHS Regional FY 2013 Developmental
                           Measures document.
                       b.	 OCHP will continue to craft realistic measures during
                           FY 2013-2014.

               3.	 Develop regional implementation guidelines and planning requirements
                   for the CGHS initiative. These guidelines should:

                       a.	 Include requirements for each region to develop an implementation
                           plan that is consistent with the measures, strategies, and expected
                           outcomes identified in the CGHS Regional FY 2013
                           Developmental Measures document.
                       b.	 Specify how CGHS initiative staff will coordinate better with
                           internal EPA and external partners, taking into account recent
                           changes in program status and funding.
                       c.	 Specify how CGHS initiative staff will collect data, determine the
                           programmatic success of the initiative, and modify the program to
                           meet customer needs.




13-P-0201                                                                                     12
               4.	 Develop assessment criteria and conduct regular reviews of the EPA’s
                   overall School Environmental Health programs to determine whether the
                   EPA is providing sufficient regulatory and voluntary program services to
                   address the risks to children’s health in schools.

Agency Response and OIG Evaluation
            We received a response from the Deputy Administrator on January 29, 2013.
            After a meeting to discuss the response, we received an amended response from
            the acting director for OCHP dated February 12, 2013. The agency agreed to all
            four recommendations, and provided corrective actions and estimated completion
            dates that meet the intent of the recommendations. The recommendations remain
            open with corrective actions ongoing. No further response to this report is
            required. The agency’s January and February 2013 responses are included in
            appendix A. We also modified the report to address appropriate technical
            comments we received from the agency.




13-P-0201                                                                                 13
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                         BENEFITS (in $000s)

    Rec.    Page                                                                                              Planned        Claimed    Agreed-To
    No.      No.                          Subject                         Status1     Action Official      Completion Date   Amount      Amount

     1       12     Fulfill the requirement of EISA to report to            O       Deputy Administrator       3/31/13
                    Congress all activities carried out under the
                    Healthy High-Performance Schools subtitle.

     2       12     Develop implementation guidelines and                   O        Director, Office of       9/30/13
                    management controls that specify how:                            Children’s Health
                      a. OCHP will manage the adoption and                               Protection
                         implementation of the newly developed
                         CGHS Vision, Goals, Objectives and
                         Activities document, and the CGHS Regional
                         FY 2013 Developmental Measures
                         document.
                      b. OCHP will continue to craft realistic
                         measures during FY 2013-2014.

     3       12     Develop regional implementation guidelines and          O        Director, Office of       9/30/13
                    planning requirements for the CGHS initiative.                   Children’s Health
                    These guidelines should:                                             Protection
                      a. Include requirements for each region to
                         develop an implementation plan that is
                         consistent with the measures, strategies, and
                         expected outcomes in the CGHS Regional
                         FY 2013 Developmental Measures
                         document.
                      b. Specify how CGHS initiative staff will
                         coordinate better with internal EPA and
                         external partners, taking into account recent
                         changes in program status and funding.
                      c. Specify how CGHS initiative staff will collect
                         data, determine the programmatic success of
                         the initiative, and modify the program to meet
                         customer needs. 

     4       13     Develop assessment criteria and conduct regular         O        Director, Office of      12/31/13
                    reviews of the EPA’s overall School Environmental                Children’s Health
                    Health programs to determine whether the EPA is                      Protection
                    providing sufficient regulatory and voluntary
                    program services to address the risks to children’s
                    health in schools.




1    O = Recommendation is open with agreed-to corrective actions pending.

     C = Recommendation is closed with all agreed-to actions completed.

     U = Recommendation is unresolved with resolution efforts in progress.





13-P-0201                                                                                                                                      14
                                                                                                    Appendix A

                       Agency Response to Draft Report

January 29, 2013

SUBJECT:           Response to the Office of lnspector General Draft Report No. OPE-FY12-0004
                   "EPA Needs to Improve Management of School Environmental Health Efforts,"
                   December 27, 2012

FROM:              Bob Perciasepe, Deputy Administrator

TO:                Carolyn Copper, Assistant Inspector General for Program Evaluation

Thank you for the opportunity to respond to the issues and recommendations in the report "EPA Needs
to Improve Management of School Environmental Health Efforts." Following is a summary of the
agency's overall position, along with its position on each of the report recommendations. For those
report recommendations with which the agency agrees, we have provided high-level corrective actions
and estimated completion dates. For the report recommendations with which the agency does not agree,
we demonstrate how the recommendation has been adequately addressed. For your consideration, we
offer the technical comments attachment to supplement this response.

It is the EPA's position that, to date, the agency has met all requirements of the Healthy High-
Performance Schools Subtitle of Title IV of the Energy Independence and Security Act, with the
exception of the annual report to Congress. At the time of the Office of Inspector General audit report,
the EPA had not completed the annual report to Congress. However, the report has since been drafted,
and the Office of Children's Health Protection will actively work to expedite internal review of the
report and submit it to the Office of Management and Budget. Submission of the report to Congress will
fulfill the EPA's requirement to the Energy Independence and Security Act.

Protecting children's health and advancing environmental justice are key priorities for the EPA, and we
are committed to reducing exposures to the environmental hazards children encounter in their daily
lives. The EPA's mission to protect human health and the environment requires us to pay special
attention to the vulnerabilities of those who are disproportionately affected by health challenges,
especially our nation's children. Of particular note, the EPA's efforts toward encouraging the
establishment of healthy school environments and meeting the requirements set forth under the Healthy
High-Performance Schools Subtitle of Title IV of EISA are two critical examples of the type of work
being done across the agency to protect children's health.

The EPA considers the health of children in all actions that we undertake and will continue to coordinate
internally across our school-related programs and with other federal agencies and external partners to
implement our goals and measures in a manner that accurately reflects current resource levels.

If you have any questions or need additional information, please contact either Jackie Mosby, acting
director of the Office of Children's Health Protection, at (202) 566-0594 or mosby.jackie@epa.gov or
Margot Brown, director of the program implementation and coordination division, at (202) 566-0874 or
brown.margot@epa.gov.

Attachment




13-P-0201                                                                                                   15
AGENCY'S RESPONSE TO REPORT RECOMMENDATIONS

Agreements
No. Recommendation                                  High-Level Intended               Estimated
                                                    Corrective Actions                Completion by
                                                                                      Quarter and FY
1    Complete the requirement to EISA to            1. Work to expedite internal      2nd Quarter FY13
     report to Congress on all activities carried       review of report to
     out under the Healthy High-Performance             Congress and submit report
     Schools Subtitle                                   to OMB
3    Develop regional implementation                3.a. Require regions to           4th Quarter FY13
     guidelines and planning requirements for             develop implementation
     the Clean Green and Healthy Schools                  plans
     (CGHS) Initiative. The guidelines should:      3.b. Partner with EPA’s           3rd Quarter FY13
         a. Include requirements for each                 Office of Air and           4th Quarter FY13
             region to develop and implement a            Radiation to use the
             plan that is consistent with the             recently formed
             measures, strategies, and expected           SHEILDS schools
             outcomes in the CGHS Regional                stakeholder network
             FY 2013 Developmental                        group to engage internal
             Measures document                            and external partners
                                                    3.c. Document a basic data        2nd Quarter FY13
        b. Specify how the staff will better              collection plan (process
            coordinate with EPA internal and              may vary by region)
            external partners, taking into
            account recent changes in
            funding; and

         c. Specify how the CGHS Initiative
             staff will collect data, determine
             the programmatic success of the
             initiative, and modify the program
             to meet customer needs.
4.   Develop assessment criteria and conduct        4.a. Assess EPA’s School          3rd Quarter FY13
     regular reviews of EPA’s overall School              Environmental Health        4th Quarter FY13
     Environmental Health programs to                     programs through the
     determine whether EPA is providing                   existing Cross Cutting
     sufficient regulatory and voluntary                  Fundamental Strategy
     program services to address the risks to             review process (twice per
     children’s health in schools.                        year)
                                                    4.b. Assess EPA’s School          1st Quarter FY14
                                                          Environmental Health
                                                          programs through the
                                                          OCHP Strategic Plan
                                                          (with Regional Measures)
                                                          review process (end of
                                                          the year)




13-P-0201                                                                                                16
Disagreements
No. Recommendation                              Agency response              Proposed Alternative
                                                explanation
2    Develop implementation guidelines and      2.a. OCHP developed          OCHP in consultation
     management controls specify how:                implementation          with the SCG and the
                                                     guidelines and          Regions should be
     a. OCHP will manage the adoption and            management controls     granted the
        implementation of newly developed            through the schools     opportunity to
        CGHS Vision, Goals and Objectives            Vision, Goals, and      implement the VGO
        (VGO) document and CGHS Regional             Objectives (VGO)        and the regional
        FY 2013 Developmental Measures               document and the        “realistic” measures
        documents; and                               regional measures       that reflect available
                                                     assessment document.    resources made to the
     b. OCHP will continue to craft realistic        OCHP will continue      CGHS initiative at
        measures in FY 2013-2014.                    to manage the           both the national and
                                                     adoption of the         regional level.
                                                     schools VGO, OCHP
                                                     Strategic Plan and
                                                     Regional Measures
                                                     through monthly
                                                     Schools Coordinating
                                                     Group (SCG) and
                                                     Regional Schools
                                                     Coordinators
                                                     meetings.
                                                2.b. OCHP Schools            A change should be
                                                     Coordinator will        made in the report
                                                     continue to work with   which states “OCHP
                                                     Regional Schools        will work with
                                                     Coordinators to         regions to develop
                                                     implement adoption      realistic measures
                                                     of realistic measures   reflective of regional
                                                     for FY14                priorities and
                                                                             resources”




13-P-0201                                                                                             17
February 12, 2013


SUBJECT:           Amendment to the Response to the Office of Inspector General Draft Report No. OPE-FY12-0004
                   "EPA Needs to Improve Management of School Environmental Health Efforts", December 27,
                   2012

FROM:              Jacqueline E. Mosby, MPH
                   Acting Director, Office of Children’s Health

TO:                Carolyn Copper
                   Assistant Inspector General, Office of Program Evaluation

Thank you for the opportunity to discuss the issues and recommendations in the report "EPA Needs to Improve
Management of School Environmental Health Efforts" on February 5, 2013. We have reconsidered our response to
include the following amendment.

Agreement

No. Recommendation                                  High-Level Intended Corrective      Estimated
                                                    Actions                             Completion by
                                                                                        Quarter and FY
2       Develop implementation guidelines and       2.a. OCHP will develop an           3rd Quarter FY13
        management controls that specify how:             implementation plan to
                                                          manage the adoption of the
        a. OCHP will manage the adoption and              VGO and CGHS Regional
           implementation of newly developed              FY 13 Developmental
           CGHS Vision, Goals and Objectives              Measures.
           (VGO) document and CGHS Regional
           FY 2013 Developmental Measures           2.b. OCHP Schools Coordinator        4th Quarter FY13
           documents; and                                will continue to work with
                                                         Regional Schools
        b. OCHP will continue to craft realistic         Coordinator to implement
           measures in FY 2013-2014.                     adoption of realistic
                                                         measures for FY 14.

CONTACT INFORMATION

If you have any questions regarding this response, please contact Khesha Reed, Associate Director of the of the
Office of Children's Health Protection on (202) 566-0594 or Margot Brown, Director of the Program
Implementation and Coordination Division (202)566-0874.

cc: 	     Margot Brown, Office of Children's Health Protection
          Khesha Reed, Office of Children's Health Protection
          Patricia Gilchriest, Office of Executive Services




13-P-0201                                                                                                         18
                                                                            Appendix B

                                    Distribution
Office of the Administrator
Deputy Administrator
Director, Office of Children’s Health Protection
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Regional Operations
Regional Administrators, Regions 1-10
Office of the Administrator, Audit Follow-Up Coordinator
Regional Audit Follow-Up Coordinators, Regions 1-10




13-P-0201                                                                           19
